HHS/OIG-Audit--"Follow-Up Audit of Medicare Clinical Laboratory Tests Performed by Independent Clinical and Physician Laboratories, (A-01-99-00522)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Follow-Up Audit of Medicare Clinical Laboratory Tests Performed by Independent Clinical and Physician Laboratories," (A-01-99-00522)
October 3, 2000
Complete
Text of Report is available in PDF format (1.73 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
A prior audit showed that Medicare carriers overpaid independent clinical and physician laboratories about $50.2 million
for chemistry, hematology, and urinalysis tests during the 2-year period ended June 30, 1995. Our follow-up audit showed
that while significant improvements have occurred (overpayments decreased to about $31.2 million for such tests for the
2 ½-year period ended December 31, 1997), certain carriers still did not have adequate procedures and controls (including
edits) to detect and prevent inappropriate payment for laboratory tests. In addition to financial adjustments, we recommended
that the Health Care Financing Administration (HCFA) ensure carriers implement controls adequate to preclude such overpayments.
The HCFA concurred with our recommendations.